WAIVER
SUPREME COURT OF THE UNITED STATES
No. 21-158
Bobcar Media, LLC

ardvark Event Logistics, Inc.

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

0

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Evan Lechtman

Date:

8/23/21

I Digitally signed by Evan Lechtman
/ 'Date: 2021.08.23 12:40:20 -04'00'

(Type or print) Name Evan Lechtman
® Mr.
Firm

Blank Rome LLP

Address

One Logan Square

City & State

Philadelphia, PA

Phone

215-569-5367

OMs.

0 Mrs.

0 Miss

Zip 19103
Email lechtman@blankrome.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Morris Cohen, Esq.

cc: Goldberg & Cohen LLP

1350 Ave. of the Americas. 3d Floor
New York, NY 10019

